INTEREST RATES AND INTEREST CHARGES

a

Annual Percentage Rate (APR)
for Purchases

25.99%

How to Avoid Paying Interest
on Purchases

Your due date will be a minimum of 25 days following the close of each billing
cycle. We will not charge interest on new purchases provided you have paid
your entire balance in full by the due date each month.

Minimum Interest Charge

If you are charged periodic interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

FEES
Annual Fee

None.

Penalty Fees
Late Payment
Returned Payment

Up to $40.
Up to $40.

How We Will Calculate Your Balance: We use the average daily balance method (including new transactions). See
“Periodic Interest Charge Calculation” section of this Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights are included in this
Agreement. See “Your Billing Rights” section for full details.
Prime Rate: Estimated variable APRs are based on the 3.25% Prime Rate.
a. We add 22.74% to the Prime Rate to determine the Purchase APR (monthly periodic rate currently 2.17%).
The information about the costs of the credit card account described above is accurate as of April 1, 2021. This information may have changed. For the most current information
contact us at 1-800-564-5740.
Authorization: When you apply for a Kohl’s credit card
from Capital One, N.A. (“Capital One”,“we”, or “us”), you
agree to the following:
1. You authorize us to obtain credit bureau reports in
connection with your request for an account. If an account is
opened, we may obtain credit bureau reports in connection
with extensions of credit or the review or collection of your
account. If you ask, we will tell you the name and address
of each credit bureau from which we obtained a report
about you.
2. You are providing information in this application to
Capital One and to Kohl’s. Capital One may provide
information about you (even if your application is declined)
to Kohl’s so that they can create and update their records,
and provide you with services and special offers.
3. By using the account or any card, or authorizing
their use, you agree to the terms of the Cardmember
Agreement. If you open your account in a Kohl’s store
you acknowledge receipt of this disclosure and a copy of
the Cardmember Agreement before your first purchase.
4. As described in the Cardmember Agreement, we
reserve the right to change the terms of your account
(including the APRs) at any time, for any reason.
5. We will review your credit history to determine if you
qualify for an account and, if so, your credit line. Based
on this review, you may not receive a card.
6. You must be at least 18 years old to qualify (19 in AL
and NE).
7. You acknowledge that you must provide additional
information electronically, including income. Alimony,
child support or separate maintenance income need not

ICOOFR 0421.indd 2

be revealed if you do not wish it to be considered as a
basis for repaying this obligation.
8. You acknowledge that you have read and agree to
be bound by the important rate and fee disclosures
and the terms stated under this Authorization and the
Cardmember Agreement section of the disclosures
attached to this form. You agree that we may verify your
information, check your credit history and secure followup credit reports on you.
Ohio Residents: The Ohio laws against discrimination
require that all creditors make credit equally available
to all customers, and that credit reporting agencies
maintain separate histories on each individual upon
request. The Ohio Civil Rights Commission administers
compliance with the law.
New York and Vermont Residents: Capital One may
obtain at any time your credit reports, for any legitimate
purpose associated with the account or the application
or request for an account, including but not limited to
reviewing, modifying, renewing and collecting on your
account. On your request, you will be informed if such a
report was ordered. If so, you will be given the name and
address of the consumer reporting agency furnishing
the report. New York residents may contact the New
York State Department of Financial Services to obtain a
comparative listing of credit card rates, fees and grace
periods.
New York State Department of Financial Services 1-877-226-5697 or http://www.dfs.ny.gov/consumer/
creditdebt.htm
California Residents: Applicants: 1) may, after credit
approval, use the credit card account up to its credit
limit; 2) may be liable for amounts extended under the

plan to any joint applicant. As required by law, you are
hereby notified that a negative credit report reflecting
on your credit record may be submitted to a credit
reporting agency if you fail to fulfill the terms of your
credit obligations.
Notice to Married Wisconsin Residents: No provision
of any marital property agreement, unilateral statement
or court decree adversely affects our rights, unless you
give us a copy of such agreement, statement or court
order before we grant you credit, or we have actual
knowledge of the adverse obligation. All obligations
on this account will be incurred in the interest of your
marriage or family. You understand that we may be
required to give notice of this account to your spouse.
Married Wisconsin residents must furnish their
(the applicant’s) name and social security number
as well as the name and address of their spouse to
Kohl’s, PO Box 3120, Milwaukee, WI 53201.
Omission of any information requested on the application
may be reason for denial of an account.
IMPORTANT INFORMATION ABOUT PROCEDURES
FOR OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism
and money laundering activities, federal law requires
all financial institutions to obtain, verify, and record
information that identifies each person who opens an
account.
What this means for you: When you open an account,
we will ask for your name, address, date of birth, and
other information that will allow us to identify you.
We may also ask to see your driver’s license or other
identifying documents.

2/19/21 1:50 PM

KOHL’S CARDMEMBER AGREEMENT
This agreement (“Agreement”) governs your Kohl’s credit card account (“Account”)
with us. Please keep this Agreement for your records. You agree with us that the
following terms apply to your Account.
Capital One, N.A. and Kohl’s may exchange information about you and your
Account(s) so that you can receive the benefits of the Kohl’s Card program and
so that Kohl’s can inform you of additional information, offers and opportunities.
1. Definitions and Card Usage: In this Agreement, the words “you”, “your”, and
“cardmember” refer to each person who applies for the Account and each person
who agrees to be liable on the Account. The words “we,” “us,” and “our” refer to
Capital One, N.A., the creditor and issuer of the Account and any other person to whom
this Agreement and/or the Account may be assigned. “Kohl’s” means Kohl’s, Inc., N56
W17000 Ridgewood Dr., Menomonee Falls, Wisconsin 53051. Kohl’s is servicing your
Account on our behalf and is also referred to alone or together with others as an
agent. The word “Card” means the card issued to you under this Agreement that
may be used to make purchases at Kohl’s. You agree that all purchases made using
the Account shall be only for personal, family, or household purposes. “Credit Plan”
means any plan we may establish and make available on your Account that is subject
to a unique annual percentage rate (“APR”) or other terms. The sum of your Credit
Plan balances equals your total Account balance. “New Balance” means the amount
displayed as the New Balance on each billing Statement.
2. Amendments: We have the right to change the terms of this Agreement for
any reason, and in any respect, by adding, deleting or modifying any provision,
including APRs, fees, the minimum payment and other terms. We can add a new
provision without regard to whether the provision deals with a matter already
addressed by this Agreement.
In certain circumstances, we are required by law to notify you of changes to the
terms of this Agreement, and in other circumstances we may not be required to
do so. When required by law to advise you that you have a legal right to reject
any changes we make, we will provide an explanation about how to do that.
In some circumstances, APRs or other aspects of your Account may change
even though the terms of the Account do not change, for example when the
Prime Rate changes.
3. Account Information: We request certain information about you to manage your
Account.This includes:
(1) your legal name;
(2) a valid mailing address and residential address (if different);
(3) your date of birth;
(4) your Social Security number or other government identification number;
(5) your telephone and cell phone number(s);
(6) your income information; and
(7) your email address.
If you change your contact information such as any mailing address, telephone
number or email address, you must notify us immediately in writing at the address
shown on your Statement.
We may obtain telephone and cell phone numbers, mailing address and email address
information from you, third parties, caller ID and other sources. We may accept mailing
address corrections from the United States Postal Service, third parties and other sources.
4. Promise to Pay: In return for extending credit to you on this Account from time to
time, you agree to pay us for all goods and services you charge to this Account, plus any
interest, fees and other charges set forth below, according to the terms of this Agreement.
If more than one person has applied for or is liable on this Account, then (a) each of you
will be responsible for paying all charges incurred by either of you or anyone either of you
permit to use this Account; (b) we can provide Statements and communications to any of
you; and (c) notice to one of you will be considered notice to all of you.
5. Authorized Users: If you ask us to issue a Card to any other person, they are
an “Authorized User.” We may require certain information about them. We may limit
their ability to use your Card. They may have access to certain information about
your Account. You will be responsible for paying all charges on your Account made
by an Authorized User, You agree to notify each Authorized User,at the time he or
she becomes an Authorized User, that we may receive, record, exchange and use
information about him or her in the same manner we do with information about you
as described in this agreement.
If you want to remove an Authorized User from your Account, you must contact us at
the Customer Service telephone number on your Statement or on the back of your
Card and request their removal. They will be able to use your Account until you have
notified us that you are removing them from your Account. During this time, you will
still be responsible for all amounts they charge to your Account. You will be responsible
even if these amounts do not appear on your Account until later. Authorized Users
may remove themselves from your Account upon request. We reserve the right to
remove them from your Account. To remove them from your Account, we may close
your existing Account and issue a new Card with a new Account number.
6. When Effective: Your signature, including any electronic signature, on the
application for this Account or on any sales receipt, or your use of this Account, is your
consent to the terms of this Agreement with us and your acknowledgement of delivery
of a copy of this Agreement to you. The information you provide or have previously
provided on the application that identifies you constitutes a part of this Agreement
and is incorporated in it by reference. For new Account applicants, this Agreement will
not be effective until we approve your application, and then, after that only if you or
someone authorized by you charges a purchase to this Account.
7. Billing Cycle, Paying Interest, Variable Rates, Annual Percentage Rates
(“APR”), Minimum Interest Charge, Promotional Credit Plans:
Billing Cycle/Statements. In order to manage your Account, we divide time into
periods called billing cycles. Each billing cycle is approximately one month in length.
For each calendar month your Account will have a billing cycle ending in that month.
We will provide a billing statement (“Statement”) each month one is required by
applicable law. Your Account will have a billing cycle ending in each calendar month
whether or not there is a Statement for that billing cycle.
Paying Interest. We begin assessing periodic interest charges on a transaction, fee,
or interest charge from the date it is added to your daily balance as described in this
Agreement until your Account is paid in full. You can avoid periodic interest charges
on new purchases, provided you have paid your statement’s entire New Balance
(excluding balances on any Special Repayment Term Reduced APR Credit Plan) in full
by the due date each month (see Promotional Credit Plans). Your due date is at least
25 days after the close of each billing cycle.
Variable Rate. The APR for Purchases may vary with changes to the Prime Rate. We
calculate a variable APR by adding a margin to the Prime Rate published in The Wall
Street Journal on the last business day of March, June, September and December. The
APR calculated in this way will be effective as of the first day of the billing cycle that
begins in the following month.
APR for Purchases. The Prime Rate plus 22.74%, currently 25.99% (monthly periodic
rate 2.17%). The APR and monthly periodic rate stated are estimates based on the
3.25% Prime Rate.
Promotional Credit Plans. From time to time, we may offer one or more Promotional
Credit Plans prior to or at the time of your purchase. Only certain purchases may be
eligible for Promotional Credit Plans. These plans may have special repayment terms
and are conditioned on your timely payment of at least the required payment amount
each billing cycle: a.) Reduced Rate Credit Plan - With this plan, you will receive a
reduced APR on your purchase for a specified period; b.) Special Repayment Term
Reduced APR Credit Plan - with this plan, a special repayment term will be applied to
the reduced APR Promotional Credit Plan purchase for the specified period.
If you make more than one purchase on your card, the balances for the Promotional
Credit Plan purchases may be treated differently than other balances. We will advise
you if your participation in certain program features limits your eligibility for any
Promotional Credit Plan.
Minimum Interest Charge. We may charge no less than the minimum interest charge
of $1.00 if any periodic interest is due for a billing cycle.
8. Periodic Interest Charge Calculation – Average Daily Balance (Including New
Purchases): We figure the periodic interest charges on your Account by applying
the applicable monthly periodic rates to the “average daily balance” of your Account
(including current transactions). To get the “average daily balance” for each balance
type (balances on Promotional Credit Plans and balances for other amounts), we
take the beginning balance of each applicable balance type each day, add any new
purchases, unpaid interest charges, fees, other charges and debit adjustments, then
subtract any payments, credits or credit adjustments. This gives us the daily balances.
Then, we add up all the daily balances for each balance type and divide the total by
the number of days in the billing cycle. This gives us the “average daily balance” for
each balance type.
On the first day of each billing cycle we add to the daily balance the unpaid periodic
interest charges from the prior billing cycle (in this way we compound interest on
a monthly basis). Purchases and fees are added to your daily balance as of the
transaction date or a later date of our choice.
9. Payments:
Minimum Payment. You must make your minimum payment in a way that we receive
it by the time and date it is due. The minimum payment for your Account includes the
minimum payment due on each Credit Plan. You may make payments greater than
your required minimum payment. This will reduce the interest charges that are added
to your Account.
1
Cardmember Agreement 0421.indd 1

Your minimum payment will be the larger of: i) $29 (or total amount you owe if less
than $29); or ii) the sum of 1% of the New Balance (which does not include balances on
any Special Repayment Term Reduced APR Promotional Credit Plan), plus the periodic
interest charges, plus any amount required under any Special Repayment Term
Reduced APR Promotional Credit Plan, plus any penalty fees billed on the Statement
for which your minimum payment is calculated. We will also add any amount past due
to your minimum payment. In addition to the minimum payment, you may pay all or
part of the total balance on your Account. But, you must still pay at least the minimum
payment amount each month, even if you paid more than the minimum payment due
on the previous Statement.
How We Apply Your Payments. In each billing cycle, we generally apply payments up
to your minimum payment amount to satisfy the minimum payment due on each Credit
Plan, first to the highest APR Credit Plan balance and then to lower APR Credit Plan
balances. We will apply any part of your payment exceeding your minimum payment
first to the balance with the highest APR, and then to balances with lower APRs.
Payment Instructions. You agree to pay us amounts you owe in U.S. dollars. You
must use a check, money order or electronic debit drawn on a U.S. bank or a foreign
bank branch in the U.S. We will not accept cash payments through the mail. When we
receive or apply a payment, we might not restore your credit line by that amount for
up to 15 days.
For mailed payments, your Statement and the envelope it comes in give you
instructions about how, when and where to make your payments. You must follow
these instructions. Your payment will not be credited to your Account before we
receive it at the address we specify for receipt of payments and in accordance with
the payment instructions.
Payments made in store by close of business will be credited as of date payment was
received.
If you make a payment marked as paid in full or indicate that it is to pay all amounts
you owe us, you must send that payment to the special address on the back of your
Statement. That address is called the “Conditional Payments” address. We may accept
a conditional payment and not agree that it pays all amounts you owe on your Account.
Also, we may return a conditional payment to you and you will still owe us the amount
of the payment or any other amounts owed on your Account.
You authorize us to collect any payment check either electronically or by draft. We
can collect your payment checks electronically by sending the check number, check
amount, account and routing numbers to your bank. Or we can collect these checks
by sending a draft drawn on your bank account. Funds may be taken from your bank
account on the same day we receive your payment. We will not keep your original
check, just a copy of it.
You may use our optional services to make payments electronically through our
website, our automated telephone service or our customer service advisors. You do
not have to use these other payment services, and we may charge you a fee for
expedited payments made with a customer service advisor. If we do, we will tell you
the amount of the fee at the time you request the service. We are not responsible if
a payment made using our payment services is rejected or not paid. Even if it is, we
may still keep the fee.
10. Legal Notices: For important information regarding your right to dispute billing
errors under federal law, see the section marked “Your Billing Rights” that accompanies
your copy of this Agreement. All notices relating to legal actions, including bankruptcy
notices, must be sent to us, through our agent, at Kohl’s, ATTN: Credit Administrator,
P.O. Box 3043, Milwaukee, WI, 53201-3043. Legal notices sent to any other addresses
will not satisfy the legal requirement that you provide us with notice.
11. No Waiver By Us: We reserve the right to delay or refrain from enforcing any of our
rights under this Agreement without losing them. For example, we can extend the time
for making certain payments without extending others or we can accept late or partial
payments without waiving our right to have future payments made when they are due.
12. Returned Payment Fee: We may charge you this fee each time any payment
you make to us is not paid by your financial institution for any reason, even if that
institution later pays it. The returned payment fee is up to $40.
13. Late Payment Fee: We may charge a late payment fee if we do not receive at least
the required minimum payment for any billing cycle by the date and time it is due.
Your late payment fee will be zero if your balance is $15 or less, $15 if your balance
is greater than $15 but less than $50.01, and $29 if your balance is greater than $50.
The late payment fee will not exceed the amount of your minimum payment due. If
you pay late and then pay late again in any of the next six consecutive billing cycles
the late payment fee will be up to $40.00 until you have paid your minimum payment
when due for six consecutive billing cycles.
14. Default/Collection Costs. You will be in default if you fail to pay any minimum
payment by the time and date it is due, if you breach any other promise or obligation
under this Agreement, if you become incapacitated or die, or if you file for bankruptcy.
Subject to applicable law, we may also consider you to be in default under this
Agreement at any time if any statement made by you to us in connection with this
Account or any other credit program with us was false or misleading; if we receive
information indicating that you are bankrupt, intend to file bankruptcy, or are unable to
pay your debts as they become due; or we receive information leading us to conclude
that you are no longer creditworthy. In evaluating your creditworthiness, you agree
that we may rely on information contained in consumer reports, and in our discretion
we may consider the amount of debt you are carrying compared to your resources
or any other of your credit characteristics, regardless of your performance on this
Account. In the event of default, subject to any right you may have under applicable
law, we may demand that you pay the entire unpaid balance due. If the Account is
referred to an attorney, you agree to pay our reasonable attorney’s fees, but only to
the extent and in the amount permitted by applicable law, and court costs will also be
recovered where permitted by applicable law.
15. Your Credit Limit and Canceling or Limiting Your Credit: We will assign a credit
limit to your Account. Your credit limit appears on your Statement. You are responsible
for keeping track of your Account balance including any fees and interest charges
and making sure it remains below your credit limit. We may but are not required to
authorize charges that go over your credit limit. You must pay any amount over your
credit limit and you must pay us immediately if we ask you to do so. This Agreement
applies to any balance over your credit limit. We may change or cancel your credit limit
without telling you ahead of time. If we do, it will not excuse you from your obligations
to pay us.
You may close your Account at any time. We may require you to provide a closure
request in writing. Except as required by applicable law, we may close your Account
or suspend your credit privileges or any feature on your Account at any time for
any reason, including Account inactivity, without notice. If we close your Account or
suspend your credit privileges or any feature, we will not be liable to you for any
consequences that result. If you or we close your Account, you and any authorized
users must stop using your Account immediately and destroy all cards or return them
to us upon request. You will continue to be responsible for charges to your Account
according to the terms of this Agreement.
16. Credit Cards, Lost/Stolen Credit Cards and Liability for Unauthorized Use: If
requested, you agree to return to us any card issued to you. If you lose or someone
steals your card or any other means to access your Account, or if you think someone
has used your Account without your permission, you must tell us immediately. Call us
at 1-800-564-5740 or write to us at: Kohl’s, ATTN: Credit Administrator, P.O. Box 3120,
Milwaukee, WI 53201-3120. Do not use your Account after you notify us. We may end
your credit privileges and close your Account if we consider it appropriate. You agree
to provide us information to help us find out what happened. You will not be liable for
any unauthorized use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, your liability will
not exceed $50.
17. Credit Information: We may obtain and use credit and income information about
you from consumer (credit) reporting agencies and other sources. We may report
information about you and your Account to credit reporting agencies. If you request
additional cards on your Account for others, we may report Account information
in your name as well as in the names of those other people. If you think we have
reported information to a credit reporting agency that is not correct, you may write to
us at: Kohl’s, ATTN: Credit Administrator, P.O. Box 3115, Milwaukee, WI 53201-3115.
Please include your name, address, Account number, telephone number and a brief
description of the problem and a copy of the credit reporting agency report if you have
it. We will investigate the matter. If our investigation shows that you are right, we will
contact each credit reporting agency to which we reported the information and will
request they correct the report. If we disagree with you after our investigation, we will
tell you in writing or by telephone.
18. Credit Balances: You may request a refund of any credit balance at any time.
Otherwise, we will apply it to any new charges on your Account or provide the refund
to you as required by law.
19. Special Promotions: Kohl’s may, in its discretion from time-to-time, provide
you with special promotions in connection with your use of Kohl’s Card (“Special
Promotions”). Special Promotions will be subject to the terms of this Agreement,
as well as any other differing or additional terms described in the offer. Special
Promotions may be marketed in-store, online, and/or through any individual channel
or combination of channels described in Section 20 of this Agreement. Kohl’s may,
in its discretion, suspend your offers under the following circumstances, without
limitation: (i) your Account has limited activity or becomes inactive for a period of time;
(ii) your Account becomes past due and you do not make it current for a period of time.
You acknowledge that our Special Promotions offers cannot be sent to addresses
outside of the United States or Canada or to military addresses. Special Promotions
offers will not be forwarded by the postal service, so you must contact us to update

your address after moving in order to continue receiving printed Special Promotions
offers. If you need to update your address or any of your contact information or would
like to opt-out of receiving printed Special Promotions offers, please call the customer
service telephone number on your card or statement.
20. Communications: You agree that we may communicate with you by mail,
telephone, email, fax, prerecorded message, automated voice, text message, or other
means allowed by law regarding your Account. You authorize us, or anyone acting on
our behalf, to call or send a text message to any number you provide or to any number
where we reasonably believe we can contact you. These include calls to mobile,
cellular, or similar devices, and calls using automatic telephone dialing systems and/
or prerecorded messages. We may also send an email to any address where we
reasonably believe we can contact you. You agree that we may monitor or record any
conversation or other communication with you.
You acknowledge that Kohl’s may use a third party service to validate your identity
using information from your mobile phone provider, including call forwarding (e.g.,
whether you enabled call forwarding, and the number to which calls are forwarded)
and call porting (e.g., whether you are transferring the service of your phone number,
from one service provider, or carrier, to another). You agree that your cell phone
provider may release that information. You agree to receive texts from Kohl’s to verify
your device. Message and data rates may apply.
21. Established Business Relationship: You further agree that you have an
established business relationship with us and with Kohl’s and that we both may
contact you from time to time regarding your Account and products and services that
we or Kohl’s believes may be of interest to you. You agree that all such contacts are
not unsolicited and may be monitored to assure quality service.
22. GOVERNING LAW: THE TERMS AND ENFORCEMENT OF THIS AGREEMENT AND
YOUR ACCOUNT SHALL BE GOVERNED AND INTERPRETED IN ACCORDANCE WITH
FEDERAL LAW AND, TO THE EXTENT STATE LAW APPLIES, THE LAW OF VIRGINIA,
WITHOUT REGARD TO CONFLICT-OF-LAW PRINCIPLES. THE LAW OF VIRGINIA, WHERE
YOUR ACCOUNT AND WE ARE LOCATED, WILL APPLY NO MATTER WHERE YOU LIVE OR
USE THE ACCOUNT.
23. Assignment: We may assign your Account, any amounts you owe us, or any of our
rights and obligations under this Agreement to a third party. The person to whom we
make the assignment will be entitled to any of our rights that we assign to that person.
You may not assign this Account.
24. Enforcing this Agreement: We can delay enforcing or not enforce any of our
rights under this Agreement without losing our right to enforce them in the future. If
any of the terms of this Agreement are found to be unenforceable, all other terms will
remain in full force.
25. Military Lending Act (MLA)
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent.This rate must include, as applicable to the credit
transaction or account, the costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for
a credit card account).
To hear this same disclosure and a general description of your payment obligations for
this credit card account, please call us toll-free at: 1-888-832-0059.
During any period in which the Military Lending Act (“the Act”) applies to you, no
provision of your Cardholder Agreement that is inconsistent with the Act shall apply
and your Cardholder Agreement shall be interpreted to comply with the Act.
Your Cardholder Agreement shall be interpreted to comply with the Military Lending
Act, including the Military Lending Act’s restrictions on permissible loan terms and
limitations on interest and fees for customers covered by the Military Lending Act.
Any excess interest or fees charged or excess amounts collected shall be credited
or refunded. No provision of your Cardholder Agreement that is inconsistent with the
Military Lending Act shall apply.
26. FOR INFORMATION: For information about your Account, please call the customer
service telephone number on the back of your card or monthly statement, or write us
at Kohl’s, Attn: Credit Administrator, P.O. Box 3120, Milwaukee, WI.
YOUR BILLING RIGHTS: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us on a separate sheet at the
“Send Inquiries To” address shown on your billing statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do
we are not required to investigate any potential errors and you may have to pay the
amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing on a separate sheet at the “Send Inquiries To” address shown on
your billing statement.
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.
Copyright ©2021 Capital One. All rights reserved.
CMA-04/21

2/23/21 1:14 PM

Rev. 11/2020
FACTS

WHAT DOES CAPITAL ONE DO WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives consumers the right to limit some but not all sharing. Federal law
also requires us to tell you how we collect, share and protect your personal information. Please read this notice carefully to understand what we do.
The types of personal information we collect and share depend on the product or service you have with us.
This information can include:

What?

How?

• Social Security number and income
• Account balances and payment history
• Account transactions and credit card or other debt
All financial companies need to share customers’ personal information to run their everyday business. In the section below, we list the reasons financial
companies can share their customers’ personal information; the reasons Capital One chooses to share; and whether you can limit
this sharing.
Reasons we can share your
personal information

Does Capital One share?

Can you limit this sharing?

Yes

No

Yes

No

Yes

No

For our affiliates’ everyday business purposes – information about your transactions
and experiences

Yes

No

For our affiliates’ everyday business purposes – information about your creditworthiness

Yes

Yes

For nonaffiliates to market to you

Yes

Yes

For our everyday business purposes – such as to process your transactions,
maintain your account(s), respond to court orders and legal investigations, or report
to credit bureaus
For our marketing purposes – to offer our products and services to you
For joint marketing with other financial companies

Call 855-270-6626 for customer service.
To limit
our sharing

Please note:
If you are a new customer, we can begin sharing your information 30 days from the date we sent this notice. When you are no longer our customer, we
continue to share your information as described in this notice. However, you can contact us at any time to limit our sharing.

Questions?

Call 855-270-6626 or go to http://www.kohlscorporation.com/customer_service/mykc/mykc.html

Page 2
Who we are
Who is providing this notice?

This notice is provided by Capital One with respect to your Kohl’s credit card.

What we do
How does Capital One protect
my personal information?

To protect your personal information from unauthorized access and use, we use security measures that comply with federal law.
These measures include computer safeguards and secured files and buildings.

How does Capital One collect
my personal information?

We collect your personal information, for example, when you
• Open an account or give us your contact information
• Use your credit or debit card or pay your bills
• Give us your income information
We also collect your personal information from others, such as credit bureaus,
affiliates, or other companies.

Why can’t I limit all sharing?

Federal law gives you the right to limit only
• Sharing for affiliates’ everyday business purposes – information about your creditworthiness
• Affiliates from using your information to market to you
• Sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit sharing.
See below for more on your rights under state law.

What happens when I limit
sharing for an account I hold
jointly with someone else?

Your choices will apply to everyone on your account.

Definitions
Affiliates

Companies related by common ownership or control. They can be financial or nonfinancial companies.
• Our affiliates include financial companies with the Capital One, Chevy Chase, Paribus, Wikibuy and Greenpoint names, such as
Capital One Bank(USA), National Association; and Capital One National Association

Nonaffiliates

Companies not related by common ownership or control. They can be financial and nonfinancial companies.
• Nonaffiliates we share with can include insurance companies, service providers, retailers, data processors, and advertisers.

Joint marketing

A formal agreement between nonaffiliated financial companies that together market financial
products or services to you.
• Our joint marketing partners include companies such as insurance companies

Other important information
CA and VT Residents: We will not share your information with companies outside of Capital One, except for our everyday business purposes, for marketing our prod­
ucts and services to you or with your consent.
VT Residents Only: We will not disclose credit information about you within or outside the Capital One family of companies except as required or permitted by law.
Telephone Communications – All telephone communications with us or our authorized agents may be monitored or recorded.
The above notice applies only to your Kohl’s Card Accounts with Capital One and does not apply to any other accounts you have with the Capital One family of companies.
© 2020 Capital One. Capital One is a federally registered service mark.

Cardmember Agreement 0421.indd 2

2/23/21 1:14 PM

